                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A10110082                                                                      Page 1 of 1



                 OIG conducted an inquiry into an allegation that two NSF proposals (Proposal1 1 and
         Proposal 22 ) submitted under the same solicitation contained identical text. Our inquiry found
         that the PI (Subject) 3 ofProposal1 received a previously submitted version ofProposal2 from
         the Co-PI4 and copied text without attribution or permission. We referred the investigation to the
         Subject' s institution for investigation.

                The University concluded, based on the preponderance of evidence, that the Subject
         knowingly committed plagiarism, deemed a significant departure from accepted practices, and
         took actions to protect the University's interests.

                We adopted the University's findings. We concluded, based on a preponderance of the
         evidence, that the Subject knowingly committed plagiarism, deemed a significant departure from
         accepted practices, and recommended actions to be taken to protect the federal interest. The
         Deputy Director concurred with our recommendations.

                Additionally, we sent the Co-PI a Questionable Practice Letter reminding her of her
         responsibilities regarding the handling of NSF proposals.

                 This memo, the attached Report of Investigation, and the Deputy Director's letter
         constitute the case closeout. Accordingly, this case is closed.




NSF O IG Form 2 (11/02)
                                  NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230



                                         OCT 1 7 2012

     OFFICE OF THE
    DEPUTY DIRECTOR




 VIA CERTIFIED MAIL/RETURN RECEIPT REQUESTED

  Dr. YusufMehta
  Associate Professor
  Department of Civil and
    Environmental Engineering
  Rowan University
  201 Mullica Hill Road
· Glassboro, NJ 08028


        Re: Notice of Debarment


 Dear Dr. Mehta:

  On July 16, 2012, the National Science Foundation ("NSF") issued to you a Notice ofProposed
  Debannent and Notice of Research Misconduct Determination ("Notice"), in which NSF
  proposed to debar you from directly or indirectly obtaining the benefits of Federal grants for a
  period of one year. As reflected in the Notice, NSF proposed your debarment because you
  submitted a proposal to NSF containing material plagiarized from a successful proposal that had
  been submitted previously to NSF for funding. In the Notice, NSF provided you with an
. opportunity to respond to the proposed debannent.

 Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
 debarred until July 15, 2013. Debarment precludes you from receiving Federal financial and
 non-financial assistance and benefits under non-procurement Federal programs and activities
 unless an agency head or authorized designee makes a determination to grant an exception in
 accordance with 2 CFR 180.135. Non-procurement transactions include grants, cooperative
 agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees, subsidies,
 insurance, payments for specified use, and donation agreements.

 In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
 the Federal Acquisition Regulations at 48 CFR Subpart 9.4 for the period of this debannent. 2
 CFR 180.925. During the debannent period, you may not have supervisory responsibility,
 primary management, substantive control over, or critical influence on, a grant, contract, or
 cooperative agreement with any agency of the Executive Branch of the Federal Government.
                                                                                            - 2 -

Lastly, please note that, in the Notice, NSF also took the following actions against you, which
continue to remain in effect:

    •   From the end of your debarment period through July 14,2016, you are required to certify
        to the OIG that any proposals or reports you submit in connection with NSF-funded
        research do not contain plagiarized, falsified, or fabricated material.

    •   From the end of your debarment period through July 14, 2016, you are required to submit
        to the OIG assurances by a responsible official of your employer that any proposals or
        reports you submit in connection with NSF-funded research do not contain plagiarized,
        falsified, or fabricated material.

    •   You are prohibited from serving as an NSF reviewer, advisor, or consultant until July 1,
        2016.

    •   You are required to complete a comprehensive responsible conduct of research training
        course by July 1, 2013, and provide documentation of the program's content to the OIG.
        The instruction should be in an interactive format (e.g., an instructor-led course,
        workshop, etc.) and should include a discussion of plagiarism and proper citation
        practices.

Should you have any questions regarding the foregoing, please . . . v • .'.'"''"'     Assistant
General Counsel, at (703) 292-8060.




                                                            Sincerely,




                                                            Cora B. Marrett
                                                            Deputy Director
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




                                       JUL 1 6 2012
    OFFICE OF THE
   DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED

Dr. YusufMehta
Associate Professor
Department of Civil and
 Environmental Engineering
Rowan Universi:ty
201 Mullica Hill Road
Glassboro, NJ 08028

       Re: Notice of Proposed Debarment and Notice of Research Misconduct Determination

Dear Dr. Mehta:

In 2010, the University submitted a proposal to the National Science Foundation ("NSF" or the
"Foundation") for which       were identified as the Principal Investigator. This proposal was
entitled,                                                 As documented in the attached
investigative report prepared by NSF's Office of Inspector General ("OIG"), this proposal
contained plagiarized material.

In light of your misconduct, this letter serves as formal notice that NSF is proposing to debar you
from directly or indirectly obtaining the benefits of Federal grants for one year. During your
period of debarment, you will be precluded from receiving Federal financial and non-financial
assistance and benefits under non-procurement Federal programs and activities. In addition, you
will be prohibited from receiving any Federal contracts or approved subcontracts under the
Federal Acquisition Regulations ("FAR"). Lastly, during your debarment period, you will be
barred from having supervisory responsibility, primary management, substantive control over, or
critical influence on, a grant, contract, or cooperative agreement with any agency of the
Executive Branch of the Federal Government.

In addition to proposing your debarment, I am prohibiting you from serving as an NSF reviewer,
advisor, or consultant to NSF until July 1, 2016. Furthermore, for three years from the expiration
of your debarment period, I am requiring that you submit certifications, and that a responsible
official of your employer submit assurances, that any proposals or reports you submit to NSF do
not contain plagiarized, falsified, or fabricated material. Lastly, you must complete a
comprehensive responsible conduct of research training course by July 1, 2013, and provide
documentation of the program's content to the OIG. The instruction should be in an interactive
format (e.g., an instructor-led course, workshop, etc.) and should include a discussion of
plagiarism and proper citation practices.
                                                                                            Page 2
Research Misconduct and Sanctions other than Debarment

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.1(a)(3). A finding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; arid
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

Your proposal contained verbatim and paraphrased text copied from a successful proposal that
had been submitted previously to NSF for funding. By submitting a proposal to NSF that copies
the ideas or words of another without adequate attribution, as described in the OIG investigative
report, you misrepresented someone else's work as your own. In addition, you failed to properly
acknowledge or credit the author of the source document in your proposal. Your conduct
unquestionably constitutes plagiarism. I therefore conclude that your actions meet the applicable
definition of"research misconduct" set forth in NSF's regulations.

Pursuant to NSF' s regulations, the Foundation must also determine whether to make a finding of
misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After reviewing the
Investigative Report, NSF has determined that, based on a preponderance of the evidence, your
plagiarism was committed knowingly and constituted a significant departure from accepted
practices of the relevant research community. I am, therefore, issuing a finding ofresearch
misconduct against you.

NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF ; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. · 45 CFR §689.3(a)(l). Group II
actions include award suspension or restrictions on designated activities or expenditures;
requiring special reviews of requests for funding; and requiring correction to the research record.
45 CFR §689.3(a)(2). Group III actions include suspension or termination of awards;
prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).
                                                                                            Page 3
In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct; our determination that it was committed knowingly; the fact
that the source document was a proposal previously funded by NSF; the fact that it was an
isolated incident; and the fact that your misconduct had no impact on the research record. I have
also considered other relevant circumstances. 45 CFR § 689.3(b).

Based on the foregoing, I am imposing the following actions on you:

   •    For three years from the end of your debarment period, you are required to submit
        certifications that any proposals or reports you submit to NSF do not contain plagiarized,
        falsified, or fabricated material.

   •    For three years from the end of your debarment period, you are required to submit
        assurances by a responsible official of your employer that any proposals or reports you
        submit to NSF do not contain plagiarized, falsified, or fabricated material.

   •    From the date of this letter through July 1, 2016, you are prohibited from serving as an
        NSF reviewer, advisor, or consultant.

   ·•   You are required to complete a comprehensive responsible conduct of research training
        course by July 1, 2013, and provide documentation of the program's content to the OIG.
        The instruction should be in an interactive format (e.g., an instructor-led course,
        workshop, etc.) and should include a discussion of plagiarism and proper citation
        practices.

All certifications, assurances, and training documentation should be submitted in writing to
NSF's Office oflnspector General, Associate Inspector General for Investigations, 4201 Wilson
Boulevard, Arlington, Virginia 22230.

Debarment

Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

        (b)    Violation of the terms of a public agreement or transaction so serous as to affect
               the integrity of an agency program, such as -

               (1)     A willful failure to perform in accordance with the terms of one or more
                       public agreements or transactions; or


               (3)     A willful violation of a statutory or regulatory provision or requirement
                       applicable to a public agreement or transaction.
                                                                                            Page4
In any debarment action, the government must establish the cause for debarment by a
preponderance ofthe evidence. 2 CFR 180.850. In this case, you knowingly plagiarized
material in a grant proposal submitted to the Foundation. Thus, your action supports a cause for
debarment under 2 CFR 180.800(b).


Length of Debarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
exceed three years but, where circumstances warrant, a longer period may be imposed. 2 CFR
180.865. Having considered the seriousness of your actions, as well as the relevant aggravating
and mitigating factors set forth in 2 CFR 180.860, we are proposing your debarment for one year.


Appeal Procedures for Finding of Research Misconduct and Procedures Governing
Proposed Debarment


Appeal Procedures for Finding of Research Misconduct

Under NSF' s regulations, you have 30 days after receipt of this letter to submit an appeal of this
finding, in writing, to the Director of the Foundation. 45 CFR 689.1O(a). Any appeal should be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard, Arlington,
Virginia 22230. If we do not receive your appeal within the 30-day period, the decision on the
finding of research misconduct will become final. For your information, we are attaching a copy
of the applicable regulations.


Procedures Governing Proposed Debarment

The provisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person or in writing, or through a representative, information and argument in opposition to
this debarment. 2 CFR 180.820. Comments submitted within the 30-day period will receive full
consideration and may lead to a revision of the recommended disposition. IfNSF does not
receive a response to this notice within the 30-day period, this debarment will become final.

Any response should be addressed to                      General Counsel, National Science
Foundation, Office ofthe General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. For your information, we are attaching a copy of the Foundation' s regulations
on non-procurement debarment and FAR Subpart 9.4.
                                                                                 Page 5
Should you have any questions about the foregoing, please            Assistant
General Counsel, at (703) 292-5054.



                                                   Sincerely,




                                                   Cora B. Marrett
                                                   Deputy Director



Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
45 CFR Part 689
CONFIDENTIAL                                                                                                       CONFIDENTL'\L




       National Science Foundation
         Office of Inspector General




                            Confidential
                       Report of Investigation
                      Case Number A10110082
                                 March 1, 2012
                 ..    .     .     .         .   :   .   .   :..   ..   .   .   .   ..·   ..   .   ....        .



                ·This Confidential Report of IJ)ye~tigation is ·provided to yo':t
                               FOR OFFICIALUSE.ONLY. ,
 . It contains protected personal inforrn:atimi, the umiuthorized disClosure of which may result in
  •" per$onal ciiminai liability under the Privacy Act, 5 U.S.C. § 5528.. This report may be furth~r
     disclosed Within NSF OnlJ; to individuals \\rho niust have knowledge              its contents to    of
  . fa~ilita1:e. NSF's -assessment and· resolution of tllis matter. 'This report may be disclosed .
. outside NSF <;mly un<;ier the Freedom of Information imd Privacy Acts, 5 U.S .C. §§ 552 & .
   · ~52~: Please'tal<:e appropriaie precautions handling this confidential report of investigation.

                                                                                                          NSF OIG Form 22b (12/ 10)
 CONFIDENTIAL                                                                    CONFIDENTIAL


                                    Executive Summary

Allegation:     Plagiarism.

OIG Inquiry:    OIG identified 4 sources from which approximately 112lines were copied into 1
                NSF proposal. The primary source, from which 101 lines were copied, was a
                previously submitted and awarded NSF proposal. OIG referred investigation of
                the matter to the Subject's home institution.

University
Investigation
and Action:     The University concluded, based on a preponderance of the evidence, that the
                Subject knowingly committed plagiarism, deemed a departure from accepted
                practices.

                The University placed a formal letter of reprimand in the Subject's personnel
                file; made him ineligible to apply for Full Professorship until January 2015; and
                required that he serve on the University's Academic Integrity committee for two
                years.


OIG
Assessment:
                •   The Act: The Subject plagiarized 109.5lines from 3 sources into 1 NSF
                    proposal.
                •   Intent: The Subject acted knowingly.
                •   Standard of Proof: A preponderance of evidence supports the conclusion
                    that the Subject committed plagiarism.         ·
                •   Significant Departure: The Subject's plagiarism represents a significant
                    departure from accepted practices.       ·                 .
                •   Pattern: No pattern found.

OIG
Recommends:
                • · Make a finding of research misconduct against the Subject.
                • Send the Subject a letter of reprimand.
                • Debar the Subject from receiving Federal funds or participating in any
                    federally-funded project for a period of 1 year.
                • Require certifications from the Subject for a period of 3 years following
                    debarment period.
                • Require assurances from the Subject for a period of 3 years following
                    debarment period.
                • Require certification of attending a comprehensive responsible conduct of
                    research training class within 1 year.
                • Bar the Subject from serving as a reviewer for a period of 4 years.




                                               1
    CONFIDENTIAL                                                                               CONFIDENTIAL


                                                OIG's Inquiry

        OIG conducted an inquiry into an allegation that two NSF proposals (Proposal 11 and
Proposal2 2) contained identical text. We reviewed Proposals 1 and 2 and confirmed they contained
identical text, specifically in the sections detailing student recruitment, participation, and evaluation.
We examined the NSF review history of the proposals' Pis and Co-Pis and found that Proposal I 's
Co-Pe reviewed an earlier version ofProposal2 (hereafter Proposal2a). 4 We concluded the Co-PI
was most likely responsible for the copied text and contacted her about the allegation.5

       In her response, 6 the Co-PI said she did not contribute to Proposal! 's preparation, did not
copy text from Proposal 2a, and was unaware that material had been copied. She said she found
Proposal 2a while cleaning her office and provided it and her own proposals to the Pe as examples
of successful proposals. She said she told the Subject to contact Proposal2a's PI if he wanted to use
the content and the Subject assured her that Proposal 1 was an independent document. 8 The Co-PI
acknowledged she should have shredded the proposal and not provided it to a colleague. She wrote:
                                                                                      '
                 I am deeply saddened by my poor judgment call and trust placed in
                 a senior faculty member . . . I take personal responsibility for a
                 decision that violated the NSF peer review process. This incident
                 will haunt and plague me for the rest of my career . . .9

The Subject confmned the Co-PI's account. 10 He said "I take full responsibility of[sic] the content
of the proposal," adding "I am very sorry and I really regret this action." 11

        We further reviewed Proposal I for plagiarism and identified II lines of text copied from
three other sources. 12 The following chart summarizes the copied material in Proposal 1:




                                                                                                            It




  Tab3 .
6
  Tab 4.
7
  YusufMehta, the Subject and Associate Professor, Civil and Environmental Engineering, Rowan University.
8
  Tab 4, pg 3.
9
  Tab 4, pg2.
10
   The Co-PI's response included a signed response from the Subject addressed to our office.
11
   Tab 4, pg 4.                                   .
12
   Tab 5 contains the re-annotated proposal and Sources A -C.


                                                        2
     CONFIDENTIAL                                                                                  CONFIDENTIAL




                                        Source                       Proposal!
                               Proposal2a                                    lOllines
                               A (policy)                                    2.5 lines
                               B (project description)                          7lines
                               C (request for proposals)                     1.5 lines
                               Total                                        112 lines

        To determine the scope of our investigation, we reviewed the Subject and Co-PI's other
proposals for plagiarism. We examined five proposals the Subject submitted as sole PI and did not
find any substantive plagiarism. We examined four awarded proposals the Co-PI submitted as PI
and, similarly did not find any substantive plagiarism.

       Lastly, because most of the copied text was from another NSF proposal, we examined the
Subject's proposals for text copied from proposals he reviewed for NSF. We found no evidence of
such plagiarism.

        Based on our inquiry, we concluded there was sufficient evidence to proceed to an
investigation related to the Subject's copying of text into Proposal 1. 13


                                            University l~vestigation

       Consistent with our policy, we referred the investigation to the University. 14 The
University, consistent with its policies, 15 convened a Committee, which conducted interviews and
reviewed evidence. 16 The Committee produced a Report, which it provided to our office with
attachments. 17

       The Committee concluded, based on the preponderance of evidence, that the Subject
knowingly committed plagiarism, deemed a sigillficant departure from accepted practices. 18 It said
the Subject "freely confessed to plagiarizing significant components of proposal [sic] submitted to
NSF" 19 and found "no factual disputes"20 between the Subject's and Co-PI's accounts of events.

        The Committee found it "clear that the format, logistics, and assessment sections were in
                                                 21
fact plagiarized, but that the projects were not" and that the plagiarism was done knowingly. The
Subject told the Committee:



13
   The Co-PI's violation ofNSF ' s peer review process will be handled separately.
14
                      Tab 6 contains the referral letter.
15
   Tab 6 .
16
   Tab 7, pages 11-12, detail the University's process.
17
   Tab 7.
18
   The PI was the Subject of the investigation. However, we note that the Co-PI, when interviewed "expressed great
remorse for having kept the proposal that she had reviewed instead of shredding it" (Tab 7, pg 5).
19
   Tab 7, pg 1.
20
   Tab 7, pg 5.
21
   Tab 7, pg 4 .


                                                           3
         CONFIDENTIAL                                                                              CONFIDEN TIAL



                        .. . he considered the elements of the proposal dealing with the
                        recruiting of students, the logistics of assembling, feeding and
                        sheltering, and managing the students, and the assessment of their
                        learning as a result of the experience to be 'essential boilerplate' and
                        knowingly copied these section[ sic] from the proposal provided to
                        him by [the Co-PI]. 22                                .


.          The Committee determined the Subject's action constituted a significant departure from
    accepted practices of the University, his professional society,23 and other research communities. It
    wrote:

                        There is no research community in which copying the intellectual
                        property of another researcher from a proposal and passing off the
                        work as your own is accepted practice. There was no attribution,
                        reference, or other attempt to acknowledge the original proposal. 24

            The Subject had not received formal training in the responsible conduct of research (RCR),
    but the Committee said "he acknowledge[d] that such training was available to him." It said, since
    February 1, 2008, faculty with research awards are required to complete RCR training, and

                        It is unclear why [the Subject] had never undergone such RCR
                        training. The Sponsored Research Office has been instructed to
                        review their records to insure that all university researchers have
                        undergone such training. 25

            The Committee found the Subject's actions did not have a significant impact on the research
    record, research subjects, other researchers, institutions, or the public welfare. 26 It reviewed 19
    other proposals and found no evidence of a pattern of misconduct. 27

            The Committee concluded that the Subject "clearly understands the significance of his
    actions" and "accepted full responsibility for his actions, made no effort to deflect blame or cast
    dispersion on others, and [was] deeply affected by the process." 28


                                               University Adjudication

           The Committee recommended that the Subject's personnel file include a formal letter of
    reprimand; that he be ineligible to apply for Full Professorship until January 2015; and that he serve




23···········1>
    22


    24
    25
    26
    27
    28
         Tab 7, pg 3.

       Tab 7, pg 5-6.
       Tab 7, pg 7.
       Tab 7, pg 6-7.
       Tab 7, pg 6.
       Tab 7, pg 8.


                                                           4
     CONFIDENTIAL                                                                                       CONFIDENTIAL


as a representative on the University's Academic Integrity committee for two years. 29 The Provost30
upheld these recommendations.


                                                   OIG's Assessment

      The University provided OIG with its Report, and OIG invited the Subject's comments. 31
The Subject chose not to respond.

        OIG assessed the Report for accuracy and completeness. Overall, we found the Report to be
both accurate and complete. We concluded the University followed reasonable procedures in
conducting its investigation. We adopted the University's findings in lieu of conducting our own
investigation.32

        A fmding of research misconduct by NSF requires (1) there be a significant departure from
accepted practices of the relevant research community, (2) the research misconduct be committed
intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a preponderance of
the evidence. 33                                 .


                                                         The Acts

        Our review found the Subject plagiarized 109.5 lines into Proposal!. OIG concurs with the
Report, which addressed the lOllines of plagiarism from Proposal2a, that the Subject's actions
constitute plagiarism. The Subject himself acknowledged he plagiarized text in Proposal 1, and
acknowledged that the text came from an awarded NSF proposal the Co-PI provided him as an
example document. He further acknowledged the Co-PI had explicitly told him not to use the text
contained inthat proposal without explicit permission and acknowledged he had confirmed he had
not done so via email to the Co-PI before submission.

        OIG initially concluded the remaining lllines from Sources A-C constituted further
plagiarism. In the Subject's response to our draft report, he provided evidence that another
researcher provided him with the text containing Source A material with the intent that he simply


29
     Tab 7, pg 2.
3~-
Tab 8.
31
32
  We contacted the University                                                         regarding the Report' s lack of
reference to Sources A-C. In his response (Tab 9), he said the Committee reviewed Sources A-C, but

                    being that [the PI] had already admitted to large-scale, knowing plagiarism of
                    material in the submitted proposal, we concluded that the information contained
                    in Sources A-C would not significantly impact either the magnitude of his
                    misconduct, nor the likely sanctions that we would impose as a result. As such,
                    the evidentiary section of our report focused primarily on his admission of guilt
                    and did not pursue individual items as there was no question of fact or attempted
                    denial.
33
     45 C.F.R. §689.2(c).


                                                             5
     CONFIDENTIAL                                                                                      CONFIDENTIAL


                                       34
insert the text into his proposal. Accordingly, we remove the 2.5 lines from Source A from the
analysis and find 8.5 lines copies from Sources B-C. We note however that this does not mitigate
the Subject's overall act of plagiarism.

        The Report found the Subject's acts constituted a significant departure from accepted
practices. We concur with the University's assessment.



        The Report concluded, based on the Subject's own statement, that he acted knowingly in
plagiarizing material into Proposal I. We concur with the assessment that the Subject's actions
were done knowingly. The Co-PI said and the Subject confirmed that the Co-PI had explicitly told
him not to use text from the other proposal in their own without first obtaining permission. The
Subject therefore knew he was using material he should not be using. The Subject however
considered the proposal text he used to be "boilerplate" and did not copy proposal text related to the
proposed project.

                                                   Standard o(Proo(

        OIG concludes that the Subject's actions and intent were proven based on a preponderance
of the evidence.

       OIG concludes that the Subject, by a preponderance of the evidence, knowingly plagiarized,
thereby committing an act of research misconduct. 35


                                        OIG's Recommended Disposition

       When deciding what appropriate action to take upon a fmding of misconduct, NSF must
consider:
             (1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it was
             an isolated event or part of a pattern; (4) Whether it had a significant
             impact on the research record, research subjects, other researchers,
             institutions or the public welfare; and (5) Other relevant
             circumstances.36

                                                      Seriousness

       The Subject's actions are a serious violation of the standards of scholarship and the tenets of
general research ethics. Copied text serves to misrepresent one' s body of knowledge, presenting
reviewers with an inaccurate representation of a proposals' respective merit Furthermore, the

34
   The text described the                                                                   of which the other researcher,
               is executive director. We do not consider this material to be plagiarized.
35
   45 C.F.R. part 689.                                           '                     .
36
   45 C.F.R. § 689.3(b).


                                                             6
     CONFIDENTIAL                                                                                        CONFIDENTIAL



seriousness is compounded by the fact that the text copied was that of a previously awarded NSF
proposal that the Co-PI provided the Subject as an example document; the fact that the Co-PI had
explicitly told him not to use text from the other proposal in their own without first obtaining
permission; and the fact that the Subject had told the Co-PI that P-roposal 1 was his own work.

                                       Degree to which Action was Knowing

        As explained, OIG fmds the Subject acted knowingly. The Subject himself says he acted
knowingly. Furthermore, the case facts clearly indicate the Subject knew what he was doing and
knew that it was improper. Specifically, he acknowledged that he copied material from Proposal 2a
and included it in Proposal! as his own text; acknowledged the Co-PI had told him not to use the
text without permission; and acknowledged he confmned to the Co-PI he had not used text from
Proposal2a. We therefore conclude that his actions were inherently knowing.

                                                          Pattern

         No pattern of plagiarism was identified.


                                                   Recommendation

Based on the evidence, OIG recommends NSF:

              •   send a letter of reprimand to the Subject informing him that NSF has made a finding
                  of research misconduct;3 7

              •   debar the Subject from receiving Federal funds or participating in any federally-
                  funded project for a period of 1 year commencing on the date of NSF's finding of
                  research misconduct; 38

              •   require the Subject to certify to OIG' s Assistant Inspector General for Investigations
                  (AlGI) that proposals or reports he submits to NSF do not contain plagiarized
                  material for 3 years after the debarment period; 39

              •   require that the Subject submit assurances by a responsible official of his employer
                  to OIG's AIGI, that proposals or reports submitted by the Subject to NSF do not
                  contain plagiarized material for 3 years after the debarment period; 40

              •   require the Subject to certify to the AlGI his completion of a comprehensive
                  responsible conduct of research training program and provide documentation of the
                  program' s content within 1 year of NSF's finding. The instruction should be an


37
   A letter of reprimand is a Group I action (45 C.F.R. §689.3(a)(l)(i)).
38
   Debarment of an individual is a Group III action (45 C.F.R. §689 .3(a)(3 )(iii)).
39
   Certification by an individual is a final action that is comparable to the final actions listed in 45 C.F.R. §689.3(a).
40
   Requirement for assurances is a Group I action (45 C.F.R. §689.3(a)(l)(iii)).


                                                              7
     CONFIDENTIAL                                                                                       CONFIDENTIAL



                   interactive format (e.g., an instructor-led course, workshop, etc) and specifically
                   include treatment of plagiarism and proper citation practices;41 and

              •   bar the Subject from serving as a reviewer for 4 years; 42

                              Subject's Response to Draft Investigation Report

       We provided the Subject with a copy of our draft report and attachments for comment. 43
The Subject submitted a response44 in which he again acknowledged and apologized for his actions,
described the University-imposed sanctions, and explained why our recommended sanctions would
have a "damaging effect" on his career, his students, and the University.

       We concur with the Subject's assessment that he never deflected blame and that he
cooperated during the process. However, the Subject's response did not provide adequate reason
for OIG to change its original determinations and recommendations, as stated above; the extent and
source of the plagiarism necessitates the recommended actions.




41
   Completing an ethics course is a final actionthat is comparable to the final actions listed in 45 C.F.R. §689.3(a).
42
   Prohibition from serving as a reviewer is a Group III action (45 C.F.R. §689.3(a)(3)(ii)).
43
   Tab 10.
44
   Tab 11.


                                                             8
